               Department of Veterans Affairs
               Office of Inspector General


                 Office of Healthcare Inspections

Report No. 14-00689-142




    Combined Assessment Program 

            Review of the 

      Orlando VA Medical Center 

           Orlando, Florida 





May 6, 2014

                      Washington, DC 20420
To Report Suspected Wrongdoing in VA Programs and Operations 

                    Telephone: 1-800-488-8244 

                   E-Mail: vaoighotline@va.gov

         (Hotline Information: www.va.gov/oig/hotline)

                                              CAP Review of the Orlando VA Medical Center, Orlando, FL



                                              Glossary
                 CAP            Combined Assessment Program
                 CLC            community living center
                 CS             controlled substances
                 EHR            electronic health record
                 EOC            environment of care
                 facility       Orlando VA Medical Center
                 FPPE           Focused Professional Practice Evaluation
                 FY             fiscal year
                 MEC            Medical Executive Committee
                 MH             mental health
                 NA             not applicable
                 NM             not met
                 OIG            Office of Inspector General
                 PRC            Peer Review Committee
                 QM             quality management
                 RRTP           residential rehabilitation treatment program
                 VHA            Veterans Health Administration
                 VISN           Veterans Integrated Service Network




VA OIG Office of Healthcare Inspections
                                                        CAP Review of the Orlando VA Medical Center, Orlando, FL



                                            Table of Contents 

                                                                                                                             Page 

Executive Summary ...................................................................................................              i


Objectives and Scope ................................................................................................              1

  Objectives ...............................................................................................................       1

  Scope......................................................................................................................      1


Reported Accomplishments......................................................................................                     2


Results and Recommendations ................................................................................                       3

  QM ..........................................................................................................................    3

  EOC ........................................................................................................................     6

  Medication Management – CS Inspection Program ................................................                                   9

  Nurse Staffing .........................................................................................................        11

  CLC Resident Independence and Dignity ...............................................................                           12

  Management of Test Results ..................................................................................                   14

  Suicide Prevention Program ...................................................................................                  15

  Management of Workplace Violence ......................................................................                         16

  MH RRTP ...............................................................................................................         17


Appendixes
  A. Facility Profile ....................................................................................................        19

  B. Strategic Analytics for Improvement and Learning ............................................                                20

  C. VISN Director Comments ..................................................................................                    23

  D. Facility Director Comments ...............................................................................                   24

  E. OIG Contact and Staff Acknowledgments .........................................................                              30

  F. Report Distribution .............................................................................................            31

  G. Endnotes ...........................................................................................................         32





VA OIG Office of Healthcare Inspections
                                          CAP Review of the Orlando VA Medical Center, Orlando, FL



                                Executive Summary 

Review Purpose: The purpose of the review was to evaluate selected health care
facility operations, focusing on patient care quality and the environment of care, and to
provide crime awareness briefings.          We conducted the review the week of
March 24, 2014.

Review Results: The review covered nine activities.                            We     made     no
recommendations in the following five activities:

 Nurse Staffing

 Community Living Center Resident Independence and Dignity

 Management of Test Results

 Suicide Prevention Program

 Management of Workplace Violence

The facility’s reported accomplishments were the increased use of mobile technologies
in patient care and participation in a project to automate reusable medical equipment
processing.

Recommendations: We made recommendations in the following four activities:
Quality Management: Complete Focused Professional Practice Evaluations for newly
hired licensed independent practitioners within the timeframe required by facility bylaws.

Environment of Care: Ensure Environment of Care Committee and Administrative
Executive Committee minutes reflect sufficient discussion of deficiencies, corrective
actions taken, and tracking of actions to closure. Secure medication/supply carts at all
times. Ensure Nursing Service is represented at Radiation Safety Committee meetings.

Medication Management – Controlled Substances Inspection Program: Initiate timely
actions to address deficiencies identified during annual physical security surveys.
Consistently complete pharmacy inspections on the same day initiated.

Mental Health Residential Rehabilitation Treatment Program: Complete and document
monthly Mental Health Residential Rehabilitation Treatment Program self-inspections,
daily public area inspections and bed checks, and weekly contraband inspections.
Ensure medications in resident rooms are secured, and document daily inspections for
this.   Document written agreements acknowledging resident responsibility for
medication security.




VA OIG Office of Healthcare Inspections                                                          i
                                          CAP Review of the Orlando VA Medical Center, Orlando, FL


Comments
The Veterans Integrated Service Network and Facility Directors agreed with the
Combined Assessment Program review findings and recommendations and provided
acceptable improvement plans. (See Appendixes C and D, pages 23–29, for the full
text of the Directors’ comments.) We will follow up on the planned actions until they are
completed.




                                                          JOHN D. DAIGH, JR., M.D. 

                                                         Assistant Inspector General for 

                                                            Healthcare Inspections





VA OIG Office of Healthcare Inspections                                                          ii
                                          CAP Review of the Orlando VA Medical Center, Orlando, FL



                              Objectives and Scope 

Objectives
CAP reviews are one element of the OIG’s efforts to ensure that our Nation’s veterans
receive high quality VA health care services. The objectives of the CAP review are to:

   	 Conduct recurring evaluations of selected health care facility operations, focusing
      on patient care quality and the EOC.

   	 Provide crime awareness briefings to increase employee understanding of the
      potential for program fraud and the requirement to refer suspected criminal
      activity to the OIG.

Scope
The scope of the CAP review is limited. Serious issues that come to our attention that
are outside the scope will be considered for further review separate from the CAP
process and may be referred accordingly.

For this review, we examined selected clinical and administrative activities to determine
whether facility performance met requirements related to patient care quality and the
EOC. In performing the review, we inspected selected areas, conversed with managers
and employees, and reviewed clinical and administrative records. The review covered
the following nine activities:

   	 QM

   	 EOC

   	 Medication Management – CS Inspection Program

   	 Nurse Staffing

   	 CLC Resident Independence and Dignity

   	 Management of Test Results

   	 Suicide Prevention Program

   	 Management of Workplace Violence

   	 MH RRTP

We have listed the general information reviewed for each of these activities. Some of
the items listed may not have been applicable to this facility because of a difference in
size, function, or frequency of occurrence.


VA OIG Office of Healthcare Inspections                                                         1
                                          CAP Review of the Orlando VA Medical Center, Orlando, FL


The review covered facility operations for FY 2013 and FY 2014 through
March 21, 2014, and was done in accordance with OIG standard operating procedures
for CAP reviews.     We also asked the facility to provide the status on the
recommendations we made in our previous CAP report (Combined Assessment
Program Review of the Orlando VA Medical Center, Orlando, Florida, Report
No. 11-02084-01, October 17, 2011). We made a repeat recommendation in
MH RRTP.

During this review, we presented crime awareness briefings for 331 employees. These
briefings covered procedures for reporting suspected criminal activity to the OIG and
included case-specific examples illustrating procurement fraud, conflicts of interest, and
bribery.

Additionally, we surveyed employees regarding patient safety and quality of care at the
facility. An electronic survey was made available to all facility employees, and
534 responded. We shared summarized results with facility managers.

In this report, we make recommendations for improvement. Recommendations pertain
to issues that are significant enough to be monitored by the OIG until corrective actions
are implemented.

                         Reported Accomplishments

Mobile Health Application Pilot
Orlando is one of three VHA medical centers participating in the Mobile Health
Application Pilot Program for the use of iPads© in the clinical setting. The goal of this
project is to increase efficiency, convenience, and accessibility for patients, clinicians,
and caregivers through use of mobile and web-based technologies.

Reusable Medical Equipment Project
The facility is participating in a pilot project with General Electric to automate
sterilization of reusable medical equipment. The project purpose is to validate proper
automation of surgical instrument sterilization, packaging, and delivery to the operating
room, possibly reducing the risk of exposure to unsanitary instruments while
simultaneously improving efficiency.




VA OIG Office of Healthcare Inspections                                                         2
                                                  CAP Review of the Orlando VA Medical Center, Orlando, FL



                          Results and Recommendations 

QM
The purpose of this review was to determine whether facility senior managers actively supported
and appropriately responded to QM efforts and whether the facility met selected requirements
within its QM program.1

We conversed with senior managers and key QM employees, and we evaluated meeting
minutes, EHRs, and other relevant documents. The table below shows the areas reviewed for
this topic. The area marked as NM did not meet applicable requirements and needed
improvement. Any items that did not apply to this facility are marked NA.

NM                     Areas Reviewed                                      Findings
       There was a senior-level committee/group
       responsible for QM/performance improvement
       that met regularly.
        There was evidence that outlier data was
          acted upon.
        There was evidence that QM, patient
          safety, and systems redesign were
          integrated.
       The protected peer review process met
       selected requirements:
        The PRC was chaired by the Chief of Staff
          and included membership by applicable
          service chiefs.
        Actions from individual peer reviews were
          completed and reported to the PRC.
        The PRC submitted quarterly summary
          reports to the MEC.
        Unusual findings or patterns were
          discussed at the MEC.
       FPPEs for newly hired licensed independent
       practitioners were initiated and completed,
       and results were reported to the MEC.
 NA    Specific telemedicine services met selected
       requirements:
        Services were properly approved.
        Services were provided and/or received by
          appropriately privileged staff.
        Professional practice evaluation information
          was available for review.




VA OIG Office of Healthcare Inspections                                                                 3
                                                    CAP Review of the Orlando VA Medical Center, Orlando, FL


NM               Areas Reviewed (continued)                                  Findings
NA     Observation bed use met selected
       requirements:
        Local policy included necessary elements.
        Data regarding appropriateness of
          observation bed usage was gathered.
        If conversions to acute admissions were
          consistently 30 percent or more,
          observation criteria and utilization were
          reassessed timely.
 NA    Staff performed continuing stay reviews on at
       least 75 percent of patients in acute beds.
 NA    The process to review resuscitation events
       met selected requirements:
        An interdisciplinary committee was
          responsible for reviewing episodes of care
          where resuscitation was attempted.
        Resuscitation event reviews included
          screening for clinical issues prior to events
          that may have contributed to the
          occurrence of the code.
        Data were collected that measured
          performance in responding to events.
       The surgical review process met selected
       requirements:
        An interdisciplinary committee with
          appropriate leadership and clinical
          membership met monthly to review surgical
          processes and outcomes.
        All surgical deaths were reviewed.
        Additional data elements were routinely
          reviewed.
       Critical incidents reporting processes were
       appropriate.
       The process to review the quality of entries in
       the EHR met selected requirements:
        A committee was responsible to review
          EHR quality.
        Data were collected and analyzed at least
          quarterly.
        Reviews included data from most services
          and program areas.
       The policy for scanning non-VA care
       documents met selected requirements.




VA OIG Office of Healthcare Inspections                                                                   4
                                                   CAP Review of the Orlando VA Medical Center, Orlando, FL


NM              Areas Reviewed (continued)                                  Findings
NA     The process to review blood/transfusions
       usage met selected requirements:
        A committee with appropriate clinical
          membership met at least quarterly to review
          blood/transfusions usage.
        Additional data elements were routinely
          reviewed.
       Overall, if significant issues were identified,
       actions were taken and evaluated for
       effectiveness.
       Overall, senior managers were involved in
       performance improvement over the past
       12 months.
       Overall, the facility had a comprehensive,
       effective QM/performance improvement
       program over the past 12 months.
 X     The facility met any additional elements          Facility bylaws require that FPPEs be
       required by VHA or local policy.                  completed by the service chief within 90 days.
                                                         We reviewed 25 FPPEs of providers hired in
                                                         FY 2012.
                                                          Ten FPPEs were not completed by the
                                                           service chief until more than 12 months after
                                                           initiation.

Recommendation

1. We recommended that processes be strengthened to ensure that FPPEs for newly hired
licensed independent practitioners are completed within the timeframe required by facility
bylaws.




VA OIG Office of Healthcare Inspections                                                                    5
                                                  CAP Review of the Orlando VA Medical Center, Orlando, FL


EOC
The purpose of this review was to determine whether the facility maintained a clean and safe
health care environment in accordance with applicable requirements and whether selected
requirements in radiology and acute MH were met.2

At the Lake Baldwin campus, we inspected the ambulatory surgery, post-anesthesia,
endoscopy, radiology, physical medicine and rehabilitation, and laboratory areas. We also
inspected the podiatry, dermatology, general surgery, wound care, infectious disease,
pulmonary, cardiology, urology, outpatient MH, infusion/oncology/hematology, dental, spinal
cord injury, and women’s health clinics. At the Lake Nona campus, we inspected four CLC
units. Additionally, we reviewed relevant documents, conversed with key employees and
managers, and reviewed 10 radiology employee training records. The table below shows the
areas reviewed for this topic. The areas marked as NM did not meet applicable requirements
and needed improvement. Any items that did not apply to this facility are marked NA.

NM           Areas Reviewed for General EOC                                  Findings
 X     EOC Committee minutes reflected sufficient       Six months of EOC Committee and
       detail regarding identified deficiencies,        Administrative Executive Committee meeting
       corrective actions taken, and tracking of        minutes reviewed:
       corrective actions to closure.                    Minutes did not reflect sufficient discussion of
                                                           deficiencies, corrective actions taken, and
                                                           tracking of actions to closure.
       An infection prevention risk assessment was
       conducted, and actions were implemented to
       address high-risk areas.
       Infection Prevention/Control Committee
       minutes documented discussion of identified
       problem areas and follow-up on implemented
       actions and included analysis of surveillance
       activities and data.
       Fire safety requirements were met.                  
       Environmental safety requirements were met.
       Infection prevention requirements were met.
 X     Medication safety and security requirements       Three of 23 patient care areas had unlocked
       were met.                                          and unattended medication/supply carts.
       Auditory privacy requirements were met.
       The facility complied with any additional
       elements required by VHA, local policy, or
       other regulatory standards.
                Areas Reviewed for Radiology
       The facility had a Radiation Safety Committee,          
       the committee met at least every 6 months
       and established a quorum for meetings, and
       the Radiation Safety Officer attended the
       meetings.




VA OIG Office of Healthcare Inspections                                                                  6
                                                     CAP Review of the Orlando VA Medical Center, Orlando, FL


NM      Areas Reviewed for Radiology (continued)                              Findings
       Radiation Safety Committee meeting minutes
       reflected discussion of any problematic areas,
       corrective actions taken, and tracking of
       corrective actions to closure.
       Facility policy addressed frequencies of
       equipment inspection, testing, and
       maintenance.
       The facility had a policy for the safe use of
       fluoroscopic equipment.
       The facility Director appointed a Radiation
       Safety Officer to direct the radiation safety
       program.
       X-ray and fluoroscopy equipment items were
       tested by a qualified medical physicist before
       placed in service and annually thereafter, and
       quality control was conducted on fluoroscopy
       equipment in accordance with facility
       policy/procedure.
       Designated employees received initial
       radiation safety training and training thereafter
       with the frequency required by local policy,
       and radiation exposure monitoring was
       completed for employees within the past year.
       Environmental safety requirements in x-ray
       and fluoroscopy were met.
       Infection prevention requirements in x-ray and
       fluoroscopy were met.
       Medication safety and security requirements
       in x-ray and fluoroscopy were met.
       Sensitive patient information in x-ray and
       fluoroscopy was protected.
 X     The facility complied with any additional           Local policies, Radiation Safety Manual, and
       elements required by VHA, local policy, or          Radiation Safety Committee documents
       other regulatory standards.                         reviewed:
                                                            Nursing Service was not represented at
                                                              Radiation Safety Committee meetings for the
                                                              past 4 quarters.
              Areas Reviewed for Acute MH
 NA    MH EOC inspections were conducted every
       6 months.
 NA    Corrective actions were taken for                      
       environmental hazards identified during
       inspections, and actions were tracked to
       closure.




VA OIG Office of Healthcare Inspections                                                                     7
                                                  CAP Review of the Orlando VA Medical Center, Orlando, FL


NM      Areas Reviewed for Acute MH (continued)                            Findings
NA     MH unit staff, Multidisciplinary Safety             
       Inspection Team members, and occasional
       unit workers received training on how to
       identify and correct environmental hazards,
       content and proper use of the MH EOC
       Checklist and VA’s National Center for Patient
       Safety study of suicide on psychiatric units.
 NA    The locked MH unit(s) was/were in
       compliance with MH EOC Checklist safety
       requirements or an abatement plan was in
       place.
 NA    The facility complied with any additional           
       elements required by VHA, local policy, or
       other regulatory standards.

Recommendations

2. We recommended that processes be strengthened to ensure that EOC Committee and
Administrative Executive Committee minutes reflect sufficient discussion of deficiencies,
corrective actions taken, and tracking of actions to closure.

3. We recommended that processes be strengthened to ensure that medication/supply carts
are secured at all times and that compliance be monitored.

4. We recommended that processes be strengthened to ensure that Nursing Service is
represented at Radiation Safety Committee meetings.




VA OIG Office of Healthcare Inspections                                                                 8
                                                   CAP Review of the Orlando VA Medical Center, Orlando, FL


Medication Management – CS Inspection Program
The purpose of this review was to determine whether VHA facilities complied with requirements
related to CS security and inspections.3

We reviewed relevant documents and conversed with key employees. We also reviewed the
training files of the CS Coordinator and 10 CS inspectors and inspection documentation from
8 CS areas and the inpatient and outpatient pharmacies. The table below shows the areas
reviewed for this topic. The areas marked as NM did not meet applicable requirements and
needed improvement. Any items that did not apply to this facility are marked NA.

NM                     Areas Reviewed                                       Findings
       Facility policy was consistent with VHA
       requirements.
 X     VA police conducted annual physical security     Annual physical security surveys for past
       surveys of the pharmacies, and any identified    2 years reviewed:
       deficiencies were corrected.                      Pharmacy did not take action to correct
                                                           deficiencies identified in the annual physical
                                                           security survey completed in October 2013
                                                           within the 30-day timeframe set by VA Police.
       Instructions for inspecting automated
       dispensing machines were documented,
       included all required elements, and were
       followed.
       Monthly CS inspection findings summaries
       and quarterly trend reports were provided to
       the facility Director.
       CS Coordinator position description(s) or
       functional statement(s) included duties, and
       CS Coordinator(s) completed required
       certification and were free from conflicts of
       interest.
       CS inspectors were appointed in writing, were
       limited to 3-year terms, completed required
       certification and training, and were free from
       conflicts of interest.
       Non-pharmacy areas with CS were inspected
       in accordance with VHA requirements, and
       inspections included all required elements.
 X     Pharmacy CS inspections were conducted in        Documentation of pharmacy CS inspections
       accordance with VHA requirements and             conducted during the past 6 months reviewed:
       included all required elements.                   For 2 months, documentation did not reflect
                                                          that inspections were consistently completed
                                                          on the same day they were initiated.
       The facility complied with any additional
       elements required by VHA or local policy.




VA OIG Office of Healthcare Inspections                                                                  9
                                           CAP Review of the Orlando VA Medical Center, Orlando, FL



Recommendations

5. We recommended that managers initiate timely actions to address deficiencies identified
during annual physical security surveys.

6. We recommended that processes be strengthened to ensure that pharmacy inspections are
consistently completed on the same day they were initiated and that compliance be monitored.




VA OIG Office of Healthcare Inspections                                                         10
                                                    CAP Review of the Orlando VA Medical Center, Orlando, FL


Nurse Staffing
The purpose of this review was to determine whether the facility implemented the staffing
methodology for nursing personnel and completed annual reassessments and to evaluate nurse
staffing on a CLC unit.4

We reviewed facility and unit-based expert panel documents and 15 training files, and we
conversed with key employees. Additionally, we reviewed the actual nursing hours per patient
day for 1 randomly selected CLC unit for 50 randomly selected days between October 1, 2012,
and September 30, 2013. The table below shows the areas reviewed for this topic. Any items
that did not apply to this facility are marked NA. The facility generally met requirements. We
made no recommendations.

NM                      Areas Reviewed                                       Findings
NA     The facility either implemented or reassessed
       a nurse staffing methodology within the
       expected timeframes.
       The facility expert panel followed the required
       processes and included the required
       members.
       The unit-based expert panels followed the
       required processes and included the required
       members.
       Members of the expert panels completed the
       required training.
       The actual nursing hours per patient day met
       or exceeded the target nursing hours per
       patient day.
       The facility complied with any additional
       elements required by VHA or local policy.




VA OIG Office of Healthcare Inspections                                                                  11
                                                  CAP Review of the Orlando VA Medical Center, Orlando, FL


CLC Resident Independence and Dignity
The purpose of this review was to determine whether VHA facilities provided CLC restorative
nursing services and complied with selected nutritional management and dining service
requirements to assist CLC residents in maintaining their optimal level of functioning,
independence, and dignity.5

We reviewed 20 EHRs of residents (10 residents receiving restorative nursing services and
10 residents not receiving restorative nursing services but candidates for services). We also
observed 10 residents during 2 meal periods, reviewed 10 employee training/competency
records and other relevant documents, and conversed with key employees. The table below
shows the areas reviewed for this topic. Any items that did not apply to this facility are marked
NA. The facility generally met requirements. We made no recommendations.

NM                      Areas Reviewed                                     Findings
       The facility offered restorative nursing
       services.
       Facility staff completed and documented
       restorative nursing services, including active
       and passive range of motion, bed mobility,
       transfer, and walking activities, according to
       clinician orders and residents’ care plans.
       Resident progress towards restorative nursing
       goals was documented, and interventions
       were modified as needed to promote the
       resident’s accomplishment of goals.
       When restorative nursing services were care
       planned but were not provided or were
       discontinued, reasons were documented in
       the EHR.
       If residents were discharged from physical
       therapy, occupational therapy, or
       kinesiotherapy, there was hand-off
       communication between Physical Medicine
       and Rehabilitation Service and the CLC to
       ensure that restorative nursing services
       occurred.
       Training and competency assessment were
       completed for staff who performed restorative
       nursing services.
       The facility complied with any additional
       elements required by VHA or local policy.
            Areas Reviewed for Assistive Eating
                 Devices and Dining Service
       Care planned/ordered assistive eating devices
       were provided to residents at meal times.
       Required activities were performed during
       resident meal periods.




VA OIG Office of Healthcare Inspections                                                                12
                                               CAP Review of the Orlando VA Medical Center, Orlando, FL


NM        Areas Reviewed for Assistive Eating                            Findings
         Devices and Dining Service (continued)
       The facility complied with any additional
       elements required by VHA or local policy.




VA OIG Office of Healthcare Inspections                                                             13
                                                   CAP Review of the Orlando VA Medical Center, Orlando, FL


Management of Test Results
The purpose of this review was to evaluate whether VHA facilities complied with selected
requirements for managing test results.6

We reviewed relevant policies and procedures and the EHRs of 30 patients who had critical
laboratory, abnormal radiology, or abnormal cytology test results/values in FY 2014 (10 for
laboratory, 10 for radiology, and 10 for cytology). In addition, we reviewed the EHRs of
30 patients who had normal laboratory, radiology, or Pap smear results/values. We also
conversed with key employees.   The table below shows the areas reviewed for this topic. Any
items that did not apply to this facility are marked NA. The facility generally met requirements.
We made no recommendations.

NM                    Areas Reviewed                                        Findings
      The facility had a written policy or guideline
      that addressed the management of
      critical/abnormal test results/values, and
      compliance was monitored.
      Providers were notified of critical/abnormal test
      results/values by appropriate staff within the
      expected timeframe.
      Patients were notified of critical/abnormal test
      results/values within the expected timeframe
      and by the approved method of
      communication.
      Follow-up actions were taken in response to
      critical/abnormal test results/values.
      Patients were notified of normal test
      results/values within the expected timeframe.
      The facility complied with any additional
      elements required by VHA or local policy.




VA OIG Office of Healthcare Inspections                                                                 14
                                                   CAP Review of the Orlando VA Medical Center, Orlando, FL


Suicide Prevention Program
The purpose of this review was to evaluate the extent VHA MH providers consistently complied
with selected suicide prevention program requirements.7

We reviewed relevant documents and conversed with key employees. We also reviewed the
EHRs of 30 patients assessed to be at high risk for suicide. The table below shows the areas
reviewed for this topic. Any items that did not apply to this facility are marked NA. The facility
generally met requirements. We made no recommendations.

NM                     Areas Reviewed                                       Findings
       The facility had a full-time Suicide Prevention
       Coordinator and a plan for back-up.
       The facility had a process for responding to
       referrals from the Veteran Crisis Line and for
       identifying and tracking patients who are at
       high risk for suicide.
       The facility issued required reports regarding
       any patients who attempted or completed
       suicide within the past 12 months.
       The facility had a process to follow-up on
       patients who missed MH appointments.
       Patients had documented safety plans that
       specifically addressed suicidality.
       Patients and/or their families participated in
       plan development.
       Safety plans contained all required elements.
       There was documented evidence that the
       patients and/or their families received a copy
       of the plan.
       Patient Record Flags were placed for high-risk
       patients.
       The facility complied with any additional
       elements required by VHA or local policy.




VA OIG Office of Healthcare Inspections                                                                 15
                                                   CAP Review of the Orlando VA Medical Center, Orlando, FL


Management of Workplace Violence
The purpose of this review was to determine the extent to which VHA facilities managed violent
incidents.8

We reviewed relevant documents, 3 Reports of Contact from disruptive patient incidents that
occurred during the period March 2013–March 2014, and 16 training records of employees  who
worked in areas considered at high risk for violence. Additionally, we conversed with key
employees. The table below shows the areas reviewed for this topic. Any items that did not
apply to this facility are marked NA. The facility generally met requirements. We made no
recommendations.

NM                     Areas Reviewed                                       Findings
       The facility had policies, procedures, or
       guidelines on preventing and managing
       violent behavior.
       The facility conducted a Workplace Behavioral
       Risk Assessment to designate high-risk areas.
       The facility had an Employee Threat
       Assessment Team, a Disruptive Behavior
       Committee/Board, and a prevention and
       management of disruptive behavior program
       disruptive behavior reporting and tracking
       system.
       The facility used and tested appropriate
       physical security precautions and equipment
       in accordance with the local risk assessment.
       The facility had an employee training plan that
       addressed the security issues of awareness,
       preparedness, precautions, and police
       assistance, and employees received the
       training defined in the plan.
       Selected incidents were managed
       appropriately according to the facility’s
       policies.
       The facility complied with any additional
       elements required by VHA or local policy.




VA OIG Office of Healthcare Inspections                                                                 16
                                                  CAP Review of the Orlando VA Medical Center, Orlando, FL


MH RRTP
The purpose of this review was to determine whether the facility’s MH RRTPs complied with
selected EOC requirements.9

We reviewed relevant documents, inspected the Domiciliary Care for Homeless Veterans RRTP
and the Substance Abuse RRTP, and conversed with key employees and managers. The table
below shows the areas reviewed for this topic. The areas marked as NM did not meet
applicable requirements and needed improvement. Any items that did not apply to this facility
are marked NA.

NM                     Areas Reviewed                                      Findings
       The residential environment was clean and in
       good repair.
       Appropriate fire extinguishers were available
       near grease producing cooking devices.
       There were policies/procedures that
       addressed safe medication management and
       contraband detection.
 X     Monthly MH RRTP self-inspections were            Seven months of self-inspection documentation
       conducted, documented, and included all          reviewed:
       required elements; work orders were               There was inconsistent documentation of
       submitted for items needing repair; and any         monthly self-inspections.
       identified deficiencies were corrected.
 X     Contraband inspections, staff rounds of all      Two months of inspection documentation
       public spaces, daily bed checks, and resident    reviewed:
       room inspections for unsecured medications        Daily inspections of public areas and bed
       were conducted and documented.                      checks were not consistently documented.
                                                         Weekly contraband inspections were not
                                                           consistently documented.
                                                         Daily inspections of resident rooms for
                                                           unsecured medications were not consistently
                                                           documented. This was a repeat finding from
                                                           the previous CAP review.
 X     Written agreements acknowledging resident        Ten EHRs reviewed:
       responsibility for medication security were in    None of the EHRs contained a medication
       place.                                              security agreement signed by the resident.
       The main point(s) of entry had keyless entry
       and closed circuit television monitoring, and
       all other doors were locked to the outside and
       alarmed.
       Closed circuit television monitors with
       recording capability were installed in public
       areas but not in treatment areas or private
       spaces, and there was signage alerting
       veterans and visitors that they were being
       recorded.




VA OIG Office of Healthcare Inspections                                                                17
                                                   CAP Review of the Orlando VA Medical Center, Orlando, FL


NM             Areas Reviewed (continued)                                   Findings
       There was a process for responding to
       behavioral health and medical emergencies,
       and staff were able to articulate the process.
       In mixed gender units, women veterans’
       rooms were equipped with keyless entry or
       door locks, and bathrooms were equipped
       with door locks.
 X     Medications in resident rooms were secured.      Five resident rooms inspected:
                                                         We found an unsecured and unattended
                                                           medication cabinet in one of the rooms.
       The facility complied with any additional
       elements required by VHA or local policy.

Recommendations

7. We recommended that processes be strengthened to ensure that monthly MH RRTP
self-inspections, daily public area inspections and bed checks, and weekly contraband
inspections are completed and documented and that compliance be monitored.
8. We recommended that processes be strengthened to ensure that medications in resident
rooms on the MH RRTP units are secured and daily inspections for this are documented and
that compliance be monitored.
9. We recommended that processes be strengthened to ensure that written agreements
acknowledging MH RRTP resident responsibility for medication security are documented and
that compliance be monitored.




VA OIG Office of Healthcare Inspections                                                                 18
                                                    CAP Review of the Orlando VA Medical Center, Orlando, FL
                                                                                                Appendix A


     Facility Profile (Orlando/675) FY 2014 through March 2014a
Type of Organization                                                                  Excluded
Complexity Level                                                                      2-Medium complexity
Affiliated/Non-Affiliated                                                             Affiliated
Total Medical Care Budget in Millions                                                 $534.5
Number of:
    Unique Patients                                                                  84,306
    Outpatient Visits                                                                631,043
    Unique Employeesb                                                                2,085
Type and Number of Operating Beds (February 2014):
    Hospital                                                                         0
    CLC                                                                              118
    MH                                                                               60
Average Daily Census:
    Hospital                                                                         NA
    CLC                                                                              98
    MH                                                                               53
Number of Community Based Outpatient Clinics                                          7
Location(s)/Station Number(s)                                                         Viera/675GA
                                                                                      Daytona Beach/675GB
                                                                                      Kissimee/675GC
                                                                                      Orange City/675GD
                                                                                      Leesburg/675GE
                                                                                      Clermont/675GF
                                                                                      Lake Baldwin/675GG
VISN Number                                                                           8




a
    All data is for FY 2014 through March 2014 except where noted. 

b
    Unique employees involved in direct medical care (cost center 8200) from most recent pay period. 



VA OIG Office of Healthcare Inspections                                                                     19
                                                                        CAP Review of the Orlando VA Medical Center, Orlando, FL
                                                                                                                    Appendix B

                                    Strategic Analytics for Improvement and Learning (SAIL)c




c
    Metric definitions follow the graphs.


VA OIG Office of Healthcare Inspections                                                                                      20
                                                            CAP Review of the Orlando VA Medical Center, Orlando, FL



                                          Scatter Chart 





VA OIG Office of Healthcare Inspections                                                                          21
                                                                                                            CAP Review of the Orlando VA Medical Center, Orlando, FL


                                                                         Metric Definitions
 Measure                       Definition                                                                            Desired direction
 ACSC Hospitalization          Ambulatory care sensitive condition hospitalizations (observed to expected ratio)     A lower value is better than a higher value
 Adjusted LOS                  Acute care risk adjusted length of stay                                               A lower value is better than a higher value
 Call Center Responsiveness    Average speed of call center responded to calls in seconds                            A lower value is better than a higher value
 Call Responsiveness           Call center speed in picking up calls and telephone abandonment rate                  A lower value is better than a higher value
 Complications                 Acute care risk adjusted complication ratio                                           A lower value is better than a higher value
 Efficiency                    Overall efficiency measured as 1 divided by SFA (Stochastic Frontier Analysis)        A higher value is better than a lower value
 Employee Satisfaction         Overall satisfaction with job                                                         A higher value is better than a lower value
 HC Assoc Infections           Health care associated infections                                                     A lower value is better than a higher value
 HEDIS                         Outpatient performance measure (HEDIS)                                                A higher value is better than a lower value
 MH Status                     MH status (outpatient only, the Veterans RAND 12 Item Health Survey)                  A higher value is better than a lower value
 MH Wait Time                  MH wait time for new and established patients (top 50 clinics)                        A higher value is better than a lower value
 Oryx                          Inpatient performance measure (ORYX)                                                  A higher value is better than a lower value
 Physical Health Status        Physical health status (outpatient only, the Veterans RAND 12 item Health Survey)     A higher value is better than a lower value
 Primary Care Wait Time        Primary care wait time for new and established patients (top 50 clinics)              A higher value is better than a lower value
 PSI                           Patient safety indicator                                                              A lower value is better than a higher value
 Pt Satisfaction               Overall rating of hospital stay (inpatient only)                                      A higher value is better than a lower value
 RN Turnover                   Registered nurse turnover rate                                                        A lower value is better than a higher value
 RSMR-AMI                      30-day risk standardized mortality rate for acute myocardial infarction               A lower value is better than a higher value
 RSMR-CHF                      30-day risk standardized mortality rate for congestive heart failure                  A lower value is better than a higher value
 RSMR-Pneumonia                30-day risk standardized mortality rate for pneumonia                                 A lower value is better than a higher value
 RSRR-AMI                      30-day risk standardized readmission rate for acute myocardial infarction             A lower value is better than a higher value
 RSRR-CHF                      30-day risk standardized readmission rate for congestive heart failure                A lower value is better than a higher value
 RSRR-Pneumonia                30-day risk standardized readmission rate for pneumonia                               A lower value is better than a higher value
 SMR                           Acute care in-hospital standardized mortality ratio                                   A lower value is better than a higher value
 SMR30                         Acute care 30-day standardized mortality ratio                                        A lower value is better than a higher value
 Specialty Care Wait Time      Specialty care wait time for new and established patients (top 50 clinics)            A higher value is better than a lower value




VA OIG Office of Healthcare Inspections                                                                                                                            22
                                          CAP Review of the Orlando VA Medical Center, Orlando, FL
                                                                                      Appendix C
                               VISN Director Comments



               Department of
               Veterans Affairs                                  Memorandum


           Date:       April 24, 2014

          From:        Director, VA Sunshine Healthcare Network (10N8)

       Subject:        CAP Review of the Orlando VA Medical Center, Orlando,
                       FL

             To: 	     Associate Director,      Bay    Pines    Office   of   Healthcare
                       Inspections (54SP)

                       Director, Management Review Service (VHA 10AR MRS
                       OIG CAP CBOC)

       1. I have reviewed and concur with the CAP Review of the Orlando VA
       Medical Center on the week of March 24, 2014.

       2. Appropriate action has been initiated and/or completed as detailed in
       the attached report. Thank you!


            (original signed by:)
       Joleen Clark, MBA, FACHE




VA OIG Office of Healthcare Inspections                                                        23
                                          CAP Review of the Orlando VA Medical Center, Orlando, FL
                                                                                      Appendix D
                            Facility Director Comments



               Department of
               Veterans Affairs                                  Memorandum


           Date:       April 22, 2014

       From:           Director, Orlando VA Medical Center (675/00)

       Subject:        CAP Review of the Orlando VA Medical Center, Orlando,
                       FL

             To:       Director, VA Sunshine Healthcare Network (10N8)

       1. We thank you for allowing us the opportunity to review and respond to
       the subject report.

       2. We concur with the conclusions and recommendations presented by
       the Office of the Inspector General. We present you with the plans of
       action designed to correct those areas for which recommendations were
       provided.




       Timothy W. Liezert




VA OIG Office of Healthcare Inspections                                                        24
                                          CAP Review of the Orlando VA Medical Center, Orlando, FL


                               Comments to OIG’s Report

The following Director’s comments are submitted in response to the recommendations
in the OIG report:

OIG Recommendations

Recommendation 1. We recommended that processes be strengthened to ensure that
FPPEs for newly hired licensed independent practitioners are completed within the
timeframe required by facility bylaws.

Concur

Target date for completion: Initiated April 17, 2014. Monitoring for compliance started in
April 2014.

Facility response:

The corrective action plan will ensure compliance with the completion of FPPEs and
reporting to PSB within the required time frame per the facility by-laws and the facility’s
FPPE policy. This plan includes the designation of assigned credentialing staff to
coordinate and utilize an electronic tracking form for each provider and FPPE with due
dates on SharePoint. Assigned service level designees will complete specific portions
of the tracking form and the form will be reviewed bi-weekly with appropriate updates
documented. Regular monthly alerts will be utilized by the credentialing office to service
level designees as an advance notification system to ensure completion and submission
of data for the Professional Standards Board (PSB). The PSB will have a standing
agenda item on FPPE addressing the status of each provider due dates so the Chief of
Staff and all Service Chiefs are actively engaged in management of the process. This
enhanced process has been documented in a Standard Operating Procedure (SOP) for
staff reference. Tracking of percent compliance will be reported to PSB, as of the
April 17, 2014 meeting and ongoing.
Recommendation 2. We recommended that processes be strengthened to ensure that
EOC Committee and Administrative Executive Committee minutes reflect sufficient
discussion of deficiencies, corrective actions taken, and tracking of actions to closure.

Concur

Target date for completion: Initiated January 30, 2014.            Monitoring for compliance
started in April 2014.

Facility response:

The process for completion of the EOC and AEC Committee minutes was strengthened
in the following ways. The agenda was modified to have a standing report of
deficiencies and actions resulting in minutes reflecting discussion of deficiencies,


VA OIG Office of Healthcare Inspections                                                        25
                                          CAP Review of the Orlando VA Medical Center, Orlando, FL


actions, and tracking to closure. Minutes are reviewed by the Service Chief, as the
content expert, prior to submission for approval ensuring a check for comprehensive
presentation of each area and the deficiencies, actions, and tracking. The agenda for
the following meeting will include any items not yet completed so tracking to closure
occurs. The summary of the EOC Committee to the AEC Committee was enhanced so
that a structured listing of topics and any deficiencies is included. The process was
initiated January 30, 2014 with this set of minutes deemed acceptable during site visit.
Committee minutes are maintained on a SharePoint for review and are completed for
January, February, March, and April.
Recommendation 3. We recommended that processes be strengthened to ensure that
medication/supply carts are secured at all times and that compliance be monitored.

Concur

Target date for completion: Initial training completed April 2, 2014.            Monitoring for
compliance started in April 2014.

Facility response:

Medication cart security has been strengthened with the following actions. A
collaborative effort by Nursing Service with Medical and Surgical Services was initiated
as of March 26, 2014.           All staff, including nurses and providers, utilizing
medication/supply carts will ensure that carts are locked prior to staff leaving an exam
room in which the carts are located. One-on-one review of the process was completed
with Nursing staff by the Nurse Managers of the units on March 26, 2014. Additionally,
an email communication was sent to all nursing and provider staff of the units reviewing
the process and requirements for 100 percent compliance with medication/supply cart
security on April 2, 2014. Service Chiefs will conduct an additional training review of the
process with providers and residents on May 6, 2014. Compliance with cart security will
be monitored by the Nurse Managers or designee until 90 percent or greater is
achieved for 3 consecutive months after the staff training, conducting random,
unannounced checks of all carts.

Recommendation 4. We recommended that processes be strengthened to ensure that
Nursing Service is represented at Radiation Safety Committee meetings.

Concur

Target date for completion: Initiated March 28, 2014. Monitoring for compliance started
in April 2014.

Facility response:

Immediate action to comply with Nursing Service representation on the Radiation Safety
Committee was taken by the Nurse Manager, Surgical Services on March 28, 2014, by
appointing a staff nurse to the Radiation Safety Committee. The Nurse Manager will
serve as the alternate for the staff nurse on the committee to ensure continuous nursing


VA OIG Office of Healthcare Inspections                                                        26
                                          CAP Review of the Orlando VA Medical Center, Orlando, FL


service representation. The Radiation Safety Officer was notified to immediately add
the staff nurse to the committee membership and meeting notice  distribution for the
quarterly meetings beginning on June 3, 2014. The committee minutes will reflect
nursing representation and the committee chair will report any non-attendance by
nursing to the Chief Nurses.  

Recommendation 5. We recommended that managers initiate timely actions to
address deficiencies identified during annual physical security surveys.

Concur

Target date for completion: Initiated March 19, 2014. Monitoring for compliance started
in April 2014.

Facility response:

To ensure Pharmacy Service will correct deficiencies identified in the annual physical
security survey within the 30 day timeframe established by VA Police, the Chief of
Pharmacy Service confirmed with VA Police (on March 19, 2014) that the findings of
future physical security surveys of Pharmacy areas will be directed to Pharmacy (119).
The Chief of Pharmacy Service, or designee, will assess each deficiency and take
appropriate actions. Results of the annual physical security survey and the actions
taken by the Chief of Pharmacy Service, or designee, will be presented to the next
regularly scheduled Administrative Executive Committee meeting (scheduled for
May 21, 2014).

Recommendation 6. We recommended that processes be strengthened to ensure that
pharmacy inspections are consistently completed on the same day they were initiated
and that compliance be monitored.

Concur

Target date for completion: All training completed by April 18, 2014. Monitoring for
compliance initiated April 1, 2014.

Facility response:

To ensure our documentation consistently reflects that controlled substance inspections
are completed on the same day they are initiated, the OVAMC Controlled Substance
Coordinator (CSC) notified all Controlled Substance Inspectors (CSIs) and key
pharmacy staff at each facility via e-mail, on April 9, 2014, to manually include a date
line next to each signature line on the pharmacy controlled substance inventory report
sheets. CSC also provided one-on-one education to all inspectors by April 18, 2014,
ensuring that every inspection document is signed and dated.                CSC, as of
April 1, 2014, is reviewing all submitted inspection documents to ensure they are signed
and dated appropriately, and will continue doing so on an on-going basis to monitor for
compliance.



VA OIG Office of Healthcare Inspections                                                        27
                                          CAP Review of the Orlando VA Medical Center, Orlando, FL


The Pharmacy ADPAC, on March 27, 2014, submitted a New Service Request (NSR) at
the national level to have date lines printed next to the signature lines on each
pharmacy controlled substance inventory report to further strengthen this process. 

Recommendation 7. We recommended that processes be strengthened to ensure that
monthly MH RRTP self-inspections, daily public area inspections and bed checks, and
weekly contraband inspections are completed and documented and that compliance be
monitored.

Concur

Target date for completion: All actions were completed and monitoring was initiated
April 2014.

Facility response:

Corrective action for the monthly self-inspections process has been implemented as of
March 25, 2014. The inspection form that was changed on February 25, 2014 was
accepted for use during the site visit with its minimal track record. The form is in regular
monthly use with the maintenance of the forms in the Domiciliary new location, and an
assigned person (Chief of Domiciliary and Nurse Manager) will address identified
deficiencies with appropriate follow up action such as work orders.

Corrective action for contraband inspections, staff rounds of public spaces, daily bed
checks, and resident room inspections for unsecured medications has been
implemented as of April 2, 2014. The specific items were integrated into one form with
assignment made daily to the Health Tech staff by the Nurse Manager. Findings on
each item are reviewed by the Nurse Manager with action taken and documented on
the consolidated form in the Comments section to track completion of any findings.
Summary of daily inspections is reported daily to Domiciliary leadership in morning staff
meeting. Additionally a 3-month random weekly room identification calendar (including
days, evenings and nights) with findings was created, filed electronically and forwarded
to the treatment team for follow-up in order to ensure compliance.

Recommendation 8. We recommended that processes be strengthened to ensure that
medications in resident rooms on the MH RRTP units are secured and daily inspections
for this are documented and that compliance be monitored.

Concur

Target date for completion: Initiated March 27, 2014.                Monitoring was initiated
April 2014.

Facility response:

The corrective action for ensuring medications in resident rooms are secured is via use
of safes in each resident room. The broken medication safe in the individual resident
room was repaired on March 27, 2014. To ensure enhanced action, the review of


VA OIG Office of Healthcare Inspections                                                        28
                                          CAP Review of the Orlando VA Medical Center, Orlando, FL


unsecured medications is included in the daily inspection form for immediate correction
if lapses are identified. Compliance monitoring is included in the 3 month overall audit
of the inspection process.

Recommendation 9. We recommended that processes be strengthened to ensure that
written agreements acknowledging MH RRTP resident responsibility for medication
security are documented and that compliance be monitored.

Concur

Target date for completion: Actions completed April 10, 2014.               Monitoring initiated
April 2014.

Facility response:

Corrective action for lack of written agreements acknowledging resident responsibility
for medication security was initiated March 27, 2014, with ongoing implementation. The
use of I-Med consent was implemented on April 10, 2014, as an enhanced action so
that a record of the acknowledgement by the resident is maintained in the CPRS, and
so all staff can be informed regarding resident agreement. Monitoring has been
established on a weekly basis to ensure the process has been integrated and present in
the CPRS record. Additionally, monitoring of the process will be integrated into the
established Medical Record Review process beginning with the April 2014 chart review
to ensure compliance.




VA OIG Office of Healthcare Inspections                                                        29
                                          CAP Review of the Orlando VA Medical Center, Orlando, FL
                                                                                      Appendix E


                 OIG Contact and Staff Acknowledgments
Contact                 For more information about this report, please contact the OIG
                        at (202) 461-4720.
Onsite                  David Griffith, RN, Team Leader
Contributors            Darlene Conde-Nadeau, MSN, ARNP
                        Karen McGoff-Yost, MSW, LCSW
                        Alice Morales-Rullan, MSN, RN
                        Colin Davis, Special Agent, Office of Investigations
Other                   Elizabeth Bullock
Contributors            Shirley Carlile, BA
                        Paula Chapman, CTRS
                        Lin Clegg, PhD
                        Charles Cook, MHA
                        Marnette Dhooghe, MS
                        Matt Frazier, MPH
                        Jeff Joppie, BS
                        Victor Rhee, MHS
                        Carol Torczon, MSN, ACNP
                        Julie Watrous, RN, MS
                        Jarvis Yu, MS




VA OIG Office of Healthcare Inspections                                                        30
                                          CAP Review of the Orlando VA Medical Center, Orlando, FL
                                                                                      Appendix F


                                   Report Distribution
VA Distribution

Office of the Secretary
VHA
Assistant Secretaries
General Counsel
Director, VA Sunshine Healthcare Network (10N8)
Director, Orlando VA Medical Center (675/00)

Non-VA Distribution

House Committee on Veterans’ Affairs
House Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
House Committee on Oversight and Government Reform
Senate Committee on Veterans’ Affairs
Senate Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
Senate Committee on Homeland Security and Governmental Affairs
National Veterans Service Organizations
Government Accountability Office
Office of Management and Budget
U.S. Senate: Bill Nelson, Marco Rubio
U.S. House of Representatives: Alan Grayson, John Mica


This report is available at www.va.gov/oig.




VA OIG Office of Healthcare Inspections                                                        31
                                                   CAP Review of the Orlando VA Medical Center, Orlando, FL
                                                                                               Appendix G

                                                  Endnotes

1
    References used for this topic included:
	 VHA Directive 2009-043, Quality Management System, September 11, 2009.
	 VHA Handbook 1050.01, VHA National Patient Safety Improvement Handbook, March 4, 2011.
	 VHA Directive 2010-017, Prevention of Retained Surgical Items, April 12, 2010.
	 VHA Directive 2010-025, Peer Review for Quality Management, June 3, 2010.
	 VHA Directive 2010-011, Standards for Emergency Departments, Urgent Care Clinics, and Facility Observation
    Beds, March 4, 2010.
	 VHA Directive 2009-064, Recording Observation Patients, November 30, 2009.
	 VHA Handbook 1100.19, Credentialing and Privileging, October 15, 2012.
	 VHA Directive 2008-063, Oversight and Monitoring of Cardiopulmonary Resuscitative Events and Facility
    Cardiopulmonary Resuscitation Committees, October 17, 2008.
	 VHA Handbook 1907.01, Health Information Management and Health Records, September 19, 2012.
	 VHA Directive 6300, Records Management, July 10, 2012.
	 VHA Directive 2009-005, Transfusion Utilization Committee and Program, February 9, 2009.
	 VHA Handbook 1106.01, Pathology and Laboratory Medicine Service Procedures, October 6, 2008.
2
    References used for this topic included:
	 VHA Directive 1105.01, Management of Radioactive Materials, October 7, 2009.
	 VHA Directive 2011-007, Required Hand Hygiene Practices, February 16, 2011.
	 VHA Handbook 1105.04, Fluoroscopy Safety, July 6, 2012.
	 VHA Handbook 1160.01, Uniform Mental Health Services in VA Medical Centers and Clinics,
    September 11, 2008.
	 VA Radiology, “Online Guide,” http://vaww1.va.gov/RADIOLOGY/OnLine_Guide.asp, updated
    October 4, 2011.
	 VA National Center for Patient Safety, “Privacy Curtains and Privacy Curtain Support Structures (e.g., Track and
    Track Supports) in Locked Mental Health Units,” Patient Safety Alert 07-04, February 16, 2007.
	 VA National Center for Patient Safety, “Multi-Dose Pen Injectors,” Patient Safety Alert 13-04, January 17, 2013.
	 VA National Center for Patient Safety, Mental Health Environment of Care Checklist (MHEOCC),
    April 11, 2013.
	 Deputy Under Secretary for Health for Operations and Management, “Mitigation of Items Identified on the
    Environment of Care Checklist,” November 21, 2008.
	 Deputy Under Secretary for Health for Operations and Management, “Change in Frequency of Review Using the
    Mental Health Environment of Care Checklist,” April 14, 2010.
	 Deputy Under Secretary for Health for Operations and Management, “Guidance on Locking Patient Rooms on
    Inpatient Mental Health Units Treating Suicidal Patients,” October 29, 2010.
	 U.S. Pharmacopeia <797>, Guidebook to Pharmaceutical Compounding–Sterile Preparations, June 1, 2008.
	 10 CFR 20, Subpart F.
	 Various requirements of The Joint Commission, the Occupational Safety and Health Administration, the National
    Fire Protection Association, the Health Insurance Portability and Accountability Act, the American College of
    Radiology Practice Guidelines and Technical Standards, Underwriters Laboratories.
3
   References used for this topic included:
	 VHA Handbook 1108.01, Controlled Substances (Pharmacy Stock), November 16, 2010. 
	 VHA Handbook 1108.02, Inspection of Controlled Substances, March 31, 2010.
	 VHA Handbook 1108.05, Outpatient Pharmacy Services, May 30, 2006.
	 VHA Handbook 1108.06, Inpatient Pharmacy Services, June 27, 2006.
	 VHA, “Clarification of Procedures for Reporting Controlled Substance Medication Loss as Found in VHA
    Handbook 1108.01,” Information Letter 10-2011-004, April 12, 2011.
	 VA Handbook 0730, Security and Law Enforcement, August 11, 2000.
	 VA Handbook 0730/2, Security and Law Enforcement, May 27, 2010.
4
   The references used for this topic were:
	 VHA Directive 2010-034, Staffing Methodology for VHA Nursing Personnel, July 19, 2010.
	 VHA “Staffing Methodology for Nursing Personnel,” August 30, 2011.




VA OIG Office of Healthcare Inspections                                                                             32
                                                CAP Review of the Orlando VA Medical Center, Orlando, FL



5
    References used for this topic included:
	 VHA Handbook 1142.01, Criteria and Standards for VA Community Living Centers (CLC), August 13, 2008.
	 VHA Handbook 1142.03, Requirements for Use of the Resident Assessment Instrument (RAI) Minimum Data Set
    (MDS), January 4, 2013.
	 Centers for Medicare and Medicaid Services, Long-Term Care Facility Resident Assessment Instrument User’s
    Manual, Version 3.0, May 2013.
	 VHA Manual M-2, Part VIII, Chapter 1, Physical Medicine and Rehabilitation Service, October 7, 1992.
	 Various requirements of The Joint Commission.
6
  References used for this topic were:
 VHA Directive 2009-019, Ordering and Reporting Test Results, March 24, 2009.
 VHA Directive 1106, Pathology and Laboratory Medicine Service, April 5, 2013.
	 VA Radiology, “Online Guide,” http://vaww1.va.gov/RADIOLOGY/OnLine_Guide.asp, updated
   October 4, 2011.
 Various requirements of the Joint Commission.
7
  References used for this topic included:
	 VHA Directive 2008-036, Use of Patient Record Flags to Identify Patients at High Risk for Suicide,
   July 18, 2008.
	 VHA Handbook 1160.01, Uniform Mental Health Services in VA Medical Centers and Clinics,
   September 11, 2008.
	 Deputy Under Secretary for Health for Operations and Management, “Patients at High Risk for Suicide,”
   memorandum, April 24, 2008.
	 Various requirements of the Joint Commission.
8
  References used for this topic were:
	 VHA Directive 2009-008 (also listed as 2010-008), Standards for Mental Health Coverage in Emergency
   Departments and Urgent Care Clinics in VHA Facilities, February 22, 2010. 
	 VHA Directive 2012-026, Sexual Assaults and Other Defined Public Safety Incidents in Veterans Health
   Administration (VHA) Facilities, September 27, 2012.
	 Under Secretary for Health, “Violent Behavior Prevention Program,” Information Letter 10-97-006,
   February 3, 1997.
 Various requirements of the Occupational Safety and Health Administration.
9
  References used for this topic were:
	 VHA Handbook 1162.02, Mental Health Residential Rehabilitation Treatment Program (MH RRTP),
   December 22, 2010.
	 VHA Handbook 1330.01, Health Care Services for Women Veterans, May 21, 2010.
	 Requirements of the VHA Center for Engineering and Occupational Safety and Health and the National Fire
   Protection Association.




VA OIG Office of Healthcare Inspections                                                                        33
